March 20, 2007

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT:      Transmittal of Audit Report — Transportation Cost System
              (Report Number MS-AR-07-002)

This report presents the results of our audit of the Transportation Cost System (TRACS)
(Project Number 06YG030MS000). We conducted this audit pursuant to the Postal
Accountability and Enhancement Act, Public Law 109-435. Section 204 of the act
requires the U.S. Postal Service to annually submit a report to the Postal Regulatory
Commission analyzing costs, revenues, rates, and quality of service. The U.S. Postal
Service Office of Inspector General is required to “regularly audit the data collection
systems and procedures utilized" to prepare this report.

Overall, TRACS internal controls were effective and TRACS data was valid and reliable.
Our report contains no recommendations. However, management reviewed a draft
report for technical accuracy and we incorporated their suggested changes as
appropriate.

We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Robert Mitchell, Director, Sales and Service, or me at (703) 248-2100.




Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: H. Glen Walker
    J. Ron Poland
    Deborah A. Kendall
Transportation Cost System                                                                      MS-AR-07-002



                                                   INTRODUCTION
    Background                           The Transportation Cost System (TRACS) is a statistical
                                         sampling and data collection system that provides
                                         information to estimate purchased transportation costs for
                                         major classes and subclasses of mail and type of service.
                                         Although the U.S. Postal Service’s total purchased
                                         transportation costs are available from the accounting
                                         records, the records do not indicate how much of the
                                         transportation costs should be attributed to each specific
                                         class and subclass of mail and special service. Since the
                                         characteristics of purchased transportation vary significantly
                                         by mode of transportation, TRACS has four separate
                                         sampling systems:

                                              •    Highway
                                              •    Commercial Air
                                              •    Network Air
                                              •    Rail

                                         In fiscal year (FY) 2005, the Postal Service sampled over
                                         17,000 truck, airline, and rail van trips and used the results
                                         to distribute approximately $4.8 billion in purchased
                                         transportation costs to the appropriate classes and
                                         subclasses of mail and type of service.

                                         The Postal Service mainframe computer system at the San
                                         Mateo Information Technology and Accounting Service
                                         Center (IT/ASC) is used to create the TRACS sample
                                         frame.1 Computerized On-Site Data Entry System
                                         (CODES) software for TRACS is used to download the
                                         sample frame to web-based unit servers at each district.
                                         Data collectors conduct TRACS tests and record the results
                                         on a laptop computer using the CODES software for
                                         TRACS. The completed tests are transferred to the web-
                                         based unit servers and transmitted to the San Mateo
                                         mainframe computer system for analysis and storage.

    Objectives, Scope,                   We conducted this audit pursuant to the Postal
    and Methodology                      Accountability and Enhancement Act, Public Law 109-435.
                                         Section 204 of the act requires the Postal Service to
                                         annually submit a report to the Postal Regulatory
                                         Commission analyzing costs, revenues, rates, and quality of

1
    A sample frame is a list that identifies all the individual units in a target population.




                                                                 1
Transportation Cost System                                                                MS-AR-07-002



                                      service. The U.S. Postal Service Office of Inspector
                                      General (OIG) is required to “regularly audit the data
                                      collection systems and procedures utilized" to prepare this
                                      report.

                                      The objectives of this audit were to (1) review the
                                      effectiveness of the TRACS internal controls and (2) assess
                                      the validity and reliability of the TRACS data.

                                           •   Validity refers to whether TRACS data represents
                                               purchased transportation costs for major classes and
                                               subclasses of mail and type of service.

                                           •   Reliable data is complete, accurate and consistent;
                                               meets its intended purpose; and is not subject to
                                               inappropriate alteration.

                                      The appendix describes the scope and methodology of our
                                      review.

    Prior Audit Coverage               The OIG and Government Accountability Office (GAO)
                                       conducted two audits related to TRACS.

                                      Audit of Statistical Tests for Fiscal Year 2005 – Cost and
                                      Revenue Analysis (Report Number FF-AR-06-091, March 6,
                                      2006). This report summarized the results of statistical
                                      program audits conducted at 18 Postal Service districts and
                                      two postal facilities. The statistical program audits found the
                                      Postal Service was generally conducting statistical tests,
                                      including TRACS, in accordance with established
                                      guidelines. During the course of the audits, we observed 19
                                      TRACS tests and identified testing errors in three of them.
                                      The OIG recommended that management reinforce data
                                      collection procedures. Management agreed with the
                                      findings and recommendations.

                                       U.S. Postal Service: Improving Ratemaking Data Quality
                                       through Postal Service Actions and Postal Reform
                                       Legislation (GAO Report Number GAO-05-820, July 2005).
                                       This audit reviewed the actions the Postal Service took in
                                       response to recommendations from a 1999 data quality
                                       study that reviewed Postal Service ratemaking data,
                                       including TRACS.2 The study recommended the Postal

2
    Data Quality Study, A.T. Kearney Inc., April 16, 1999.




                                                             2
Transportation Cost System                                                     MS-AR-07-002



                              Service evaluate and adjust the TRACS sample design to
                              improve the quality of TRACS data. The study also
                             recommended the Postal Service update TRACS policies
                             and procedures and expand its documentation of TRACS in
                             postal rate cases. The audit found the Postal Service
                             followed the study recommendations and increased the
                             quantity of data collected by TRACS, rewrote the TRACS
                             policies, and expanded the rate case documentation.

                             Fiscal Year 2005 Information Systems General Controls
                             (Report Number IS-AR-06-004, March 6, 2006). This report
                             summarized the results of audits of information systems
                             general controls at Postal Service IT/ASCs, including San
                             Mateo, for FY 2005. The audit confirmed that general
                             controls over systems, data, and computer-related
                             infrastructure at the San Mateo IT/ASC generally provide
                             reasonable assurance that data were complete, secure, and
                             validated for accuracy, and that data integrity was provided.




                                              3
Transportation Cost System                                                                     MS-AR-07-002



                                         AUDIT RESULTS
    Effectiveness of             Overall, TRACS internal controls were effective. We used
    Internal Control             the Treadway Commission’s Committee of Sponsoring
    System                       Organizations (COSO)3 internal control framework to
                                 assess the effectiveness of internal controls. We found:

                                 Control Environment: A control environment was in place
                                 and included established reporting relationships and duties,
                                 a TRACS training program, and supervisory review of data
                                 collection procedures.

                                 Risk Assessment: Management identified relevant risks and
                                 the Postal Service had taken actions to mitigate the risks
                                 and improve the quality of TRACS data.

                                 Control Activities: Internal control activities throughout the
                                 TRACS process were in place and functioning. Key
                                 processes included creating the sample frames, conducting
                                 TRACS tests, and processing the TRACS test results.

                                 Information and Communication: Information and
                                 communication systems were in place and functioning.

                                 Monitoring: Monitoring controls over TRACS performance
                                 were established and working.

    Data Validity and            TRACS data was valid and reliable. General and
    Reliability                  application controls over TRACS generally provide
                                 reasonable assurance that TRACS data was valid and
                                 reliable. Additionally, data validation and edit controls within
                                 CODES, the web-based unit, and the mainframe TRACS
                                 applications provide additional assurance that TRACS data
                                 was valid and reliable.




3
 The COSO of the Treadway Commission, Internal Control – Integrated Framework (see the appendix for more
details).




                                                      4
Transportation Cost System                                                     MS-AR-07-002



                    APPENDIX. SCOPE AND METHODOLOGY

We conducted this audit from March 2006 through March 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate.

We used the Treadway Commission’s Committee of Sponsoring Organizations (COSO)
internal control framework to assess the effectiveness of internal controls. COSO
defines internal control as a process designed to provide reasonable assurance that an
organization can achieve key objectives related to the effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws and
regulations. Under the COSO framework, five interrelated components of internal
control provide a basis against which internal control can be evaluated.

   1. The control environment sets the tone for the organization and is a foundation
      for the other internal control components. Key control environment factors
      include management commitment toward effective internal controls, training, and
      supervision practices.

   2. Risk assessment is the identification, analysis, and management of relevant
      risks to achieving the organization’s objectives.

   3. Internal control activities are the policies and procedures that help ensure
      management directives are carried out. Control activities include a wide range of
      diverse activities such as approvals, authorizations, verifications, reconciliations,
      performance reviews, and documentation.

   4. Information and Communication systems report on external and internal
      events, activities, and conditions that make it possible to effectively manage the
      organization. Effective communication must flow down, across, and up the
      organization.

   5. Monitoring occurs in the course of normal operations and includes regular
      supervisory activities and other actions people take in performing their duties.
      Monitoring of internal control also includes policies and procedures for ensuring
      the findings of audits and other reviews are resolved.

To review the effectiveness of the control environment, we interviewed key personnel,
reviewed the statistical programs organizational structure and reporting relationships,
and assessed the TRACS training program.

To review the risk assessment component, we reviewed the goals and objectives that
management established for the TRACS program. We then reviewed management’s



                                            5
Transportation Cost System                                                              MS-AR-07-002



assessment of the risks to meeting those goals and objectives and strategies to mitigate
those risks.

To examine the effectiveness of control activities, we interviewed personnel, examined
TRACS policies and procedures, and reviewed key control activities throughout the
TRACS program, including:

       •   Creating the TRACS highway, commercial air, network air, and rail sample
           frames.
       •   Transmitting test schedules to the field.
       •   Conducting TRACS tests and documenting the test results.
       •   Supervising review of test results.
       •   Transmitting and processing test results.

To assess the establishment of an effective information and communications
component, we reviewed the flow of information between headquarters and field
components.

To assess monitoring, we interviewed key personnel and reviewed key monitoring
activities and controls at the headquarters and field level. We also assessed the extent
to which the results from prior audits, studies, and postal rate cases had been
considered.

To assess the validity and reliability of TRACS data, we interviewed key personnel and
reviewed five application controls over TRACS software and hardware. To test data
reliability we traced 25 actual tests from the CODES laptop to the web-based unit. We
also input simulated test data (some incorrect) for three TRACS tests (rail, highway, and
air), traced the data through the CODES laptop to the web-based unit, and observed the
functioning of the CODES data edit controls.4




4
    Edit controls are CODES laptop software programs that identify data input errors.




                                                            6
